     U.S. Department of State and
    Broadcasting Board of Governors


           Office of
       Inspector General




          Revised Final
FY 2003 Performance Plan
            December 2002
                                        Table of Contents

Vision ......................................................................................................... 1
Mission........................................................................................................ 1
Responsibilities and Authorities .......................................................................... 1
Organization and Functions ............................................................................... 2
Strategic and Performance Planning, Implementation, and Reporting Responsibilities......... 2
Goal Alignment and Allocation of Resources .......................................................... 2
Ensuring Operational Integrity and Effectiveness ..................................................... 4
Coordination of Crosscutting Issues ..................................................................... 6
Management Challenges and External Factors Affecting Goal Achievement .................... 6
Measuring Our Success .................................................................................... 7
Verification and Validation of Performance Data ..................................................... 8
FY 2003 Performance Goals, Measures and Targets Revised from those of Prior Years ........ 9
Broadcasting Board of Governors ........................................................................ 9
Supporting the President’s Management Agenda...................................................... 9

Strategic Goals

  The Department and the BBG effectively, efficiently, and economically advance the
   foreign policy interests of the United States ...................................................... 10

  The Department and the BBG adequately protect the people, information, and facilities
   under their control in the United States and abroad ............................................. 12

  The Department and the BBG have the necessary financial and support systems and
   controls to meet legal and operational requirements ............................................ 14

  The Department and the BBG ensure accountability and prevent or eliminate fraud,
   waste, abuse, and mismanagement in programs and operations .............................. 16

Projects Planned for FY 2003

Projects Supporting OIG Strategic and Performance Goals ........................................ 18
Projects Supporting President’s Management Agenda Initiatives.................................. 20
Vision

To support the Department of State (the Department) and the Broadcasting Board of
Governors (BBG) in achieving their missions as effectively, efficiently, and economically as
possible.


Mission

The mission of the Office of Inspector General is to serve as an independent,
objective reviewer and evaluator of the operations and activities of the Department
and the BBG. We analyze those operations and activities with a view toward
promoting effectiveness, efficiency, and economy. We seek out instances of fraud,
waste, abuse, and mismanagement, and we work to prevent them. We report to the
Secretary of State, the BBG, and the Congress, keeping them fully and currently
informed of significant developments and serious concerns.


Responsibilities and Authorities

The table below lists the primary legislation and authorities governing the OIG’s mission.

                    Mission Elements                             Statutory or other Authorities
   Serve as Inspector General of the Department of State      Foreign Service Act of 1980
   Conduct audits and inspections of each overseas post       Foreign Relations Authorization Act
   and domestic bureau or office of the Department of           of 1986-87
   State                                                      Omnibus Diplomatic Security and
   Assess implementation of U.S. foreign policy                 Antiterrorism Act of 1986
   Conduct audits and investigations of agency programs       Inspector General Act of 1978, as
   and operations                                               amended
   Promote economy, efficiency, and effectiveness of, and
   prevent and detect fraud and abuse in, agency programs
   and operations
   Keep Congress and the head of agency fully and
   currently informed of problems and deficiencies in
   agency programs and operations
   Audit the financial statements of the Department of        Chief Financial Officers Act of 1990
   State                                                      Government Management and Reform
                                                               Act of 1994
   Conduct intelligence oversight reviews of overseas         Executive Orders 12333 and 12863
   missions
   Serve as Inspector General of the Department of State      Omnibus Appropriations Act of 1999
   and Foreign Service and the Broadcasting Board of
   Governors




                                             1
Organization and Functions

OIG is organized around its core functions, as set forth in the Inspector General Act,
namely, audits, inspections (including those related to security and intelligence matters), and
investigations, each headed by an Assistant Inspector General (AIG). It includes an office
and AIG for Information Technology, with responsibility for both internal OIG information
technology functions and for external reviews of Department and BBG information
technology operations and issues. Support operations also headed by individual AIGs are
the Offices of Congressional, Public Affairs, and Outreach; Planning, Analysis, and Results;
Administration; and Counsel.

The Inspector General for the State Department also serves as the Inspector General for the
Broadcasting Board of Governors. To emphasize this dual responsibility, OIG also now has
an AIG for International Broadcasting Oversight and has expanded its interaction with the
BBG. The AIG oversees and coordinates all audit, inspection, and other activities related to
the BBG and international broadcasting issues. The results of these activities and related
products will be reported as part of OIG’s performance results in support of its four strategic
goals.

Strategic and Performance Planning, Implementation,
and Reporting Responsibilities

OIG strategic and performance goals and strategies have been developed in consultation
with OIG’s primary constituents, including the Department, the BBG, the Office of
Management and Budget (OMB), and the Congress. These goals focus on the key strategic
issues and supporting activities that comprise OIG’s mission to promote economy,
efficiency, and effectiveness and to detect and prevent, to the extent possible, waste, fraud,
and abuse. OIG’s strategic goals are expressed in terms of the impact of its work on the
programs and operations of the Department and the BBG. Annual performance goals
focusing on the primary elements of OIG operations, including audits, inspections,
investigations, and security and intelligence oversight reviews, are organized around and in
support of these strategic issues.

Goal Alignment and Allocation of Resources

The table that follows shows the alignment of OIG strategic and performance goals and the
estimated proportion of the FY 2003 budget of $29 million (as of Dec.31, 2002, OIG is
operating under a continuing resolution without a final FY 2003 appropriation) that is
expected to be allocated in support of each goal. Included in these totals is approximately
7% of resources, or $2 million, for executive direction that has been allocated, along with all
other indirect and support resources, to the individual strategic and performance goals.




                                               2
                Strategic and FY 2003 Performance Goals and Estimated Resources
The Department and the BBG effectively, efficiently, and economically advance the foreign policy interests of the
United States ($9.53 million or 33% of OIG resources)
Performance             Identify opportunities for improving the management and operations of              $8.01
Goals                   overseas missions, domestic bureaus, and international broadcasting activities     million
                        through post management and thematic inspections, audits, and program              (28%)
                        evaluations.
                        Evaluate at least 9 U.S. Government operations and programs with foreign           $1.52
                        policy implications, especially those under Chief of Mission authority or          million
                        related to international broadcasting and the free flow of information around
                                                                                                            (5%)
                        the world; identify obstacles to Chief of Mission, Department, or BBG
                        oversight and coordination of the operations and programs; and recommend
                        actions necessary to remove or overcome them.

The Department and the BBG adequately protect the people, information, and facilities under their control in the
United States and abroad ($7.36 million or 25% of OIG resources)
Performance             Assess the adequacy of Department and BBG security for their personnel,             $6.32
Goals                   property and information at overseas missions and domestic locations and           million
                        ensure that, as appropriate, necessary corrective actions are implemented.         (22%)
                        Identify vulnerabilities and recommend corrective action with respect to            $1.04
                        information systems and security at no fewer than 15 overseas missions.            million
                                                                                                            (4%)
The Department and the BBG have the necessary financial and support systems and controls to meet legal and
operational requirements ($6.7 million or 23% of OIG resources)
Performance             Identify challenges and vulnerabilities, with recommendations to address them,   $4.0 million
Goals                   for at least 21 Department financial and administrative support programs and        (14%)
                        activities.                                                                      $2.7 million
                        Evaluate Department and BBG progress in measuring performance and                   (9%)
                        implementing the President’s Management Agenda, and recommend
                        improvements, as appropriate.
The Department and BBG ensure accountability and prevent or eliminate fraud, waste, abuse, and mismanagement
in programs and operations ($5.41 million or 19% of OIG resources)
Performance             Identify a minimum of $7.8 million in potential monetary benefits as a result    $1.1million
Goals                   of audit and investigative recommendations to identify waste, fraud, abuse,         (4%)
                        and mismanagement and to improve the efficiency of Department operations
                        and compliance with applicable contracts and grant agreements.
                                                                                                            $4.31
                        Promote awareness and adherence to standards of professional and ethical           million
                        conduct and accountability; where necessary, conduct thorough and
                                                                                                           (15%)
                        expeditious investigations of fraud, waste, abuse, and mismanagement.
                                         OIG Internal Management Goals
Performance             Attract and retain employees with the requisite professional skills and          Allocated
Goals                   experience in the areas of foreign policy, financial auditing, information       among OIG
                        technology, security, program evaluation, investigations, and other areas of     program
                        need.                                                                            goals
                        Complete and issue a final report or other product, as appropriate, within six   (above)
                        months of starting a project.




                                                           3
OIG has two systems for tracking the allocation of resources, as well as the cost of specific
projects, to its strategic and performance goals. The Project Tracking System (PTS),
established in FY 2002, tracks personnel resources as well as travel, contractor, and other
costs related to specific projects. The OIG Timesheet System (OTS), established in FY
2003, tracks employee time and attendance against specific projects and administrative and
support operations. Time data from the OTS is linked to personnel resource data in the PTS,
allowing hours and costs to be tracked by employee and by project. Indirect and other
support function resources are allocated to specific performance goals based on the relative
percentage of program office and direct costs identified as supporting each goal.

By aligning projects with specific performance goals, OIG can evaluate more accurately the
expenditure of resources in support of individual goals. FY 2003 will be the first year that
both the PTS and the OTS will be in place, and will serve as the baseline year for project
costing data. This information will assist OIG in refining its resource estimates, better
integrating its budget and performance information, and improving the quality of data
available for decisionmaking.

Ensuring Operational Integrity and Effectiveness

In addition to performance goals supporting our four strategic goals, OIG also has
established internal management goals on human resources and the time it takes to complete
projects, along with several other initiatives related to internal management improvements.

OIG’s performance goal on human resources addresses strategies planned and results
measured to address its human resource needs, as required by OMB Circular A-11 and in
support of the President’s Management Agenda. This goal—to attract and retain employees
with the requisite professional skills and experience in the areas of foreign policy, financial
auditing, information technology, security, program evaluation, investigations, and other
areas of need—focuses on strategies to improve OIG recruitment and retention of quality
employees through a focused attrition reduction initiative. This goal will be achieved within
existing resources, although several retention strategies requiring additional resources—
including premium pay, recruitment and retention bonuses, and college tuition assistance—
will be considered if the required resources become available.

Strategies to support this goal include:

•   Examining the current knowledge, skills, and abilities of our workforce against those
    required in a comprehensive OIG long-term workforce plan.
•   Identifying vacancies in skills and expertise, and developing a recruitment plan for entry
    and mid-level employees, to meet both short-term and long-term needs in accordance
    with our workforce plan.
•   Targeting additional resources to fund new and previously unfunded positions in the
    areas of investigations and security and intelligence oversight.
•   Using diverse OIG teams to recruit, interview, and hire new employees.



                                               4
•   Identifying and recruiting exceptionally qualified FS-01 and Senior Foreign Service
    officers for hard-to-fill positions in consular and public diplomacy specialties, and
    working with the Bureau of Human Resources to develop formal “short tour”
    opportunities of less than two years for them.
•   Establishing a retention program to provide training and assignment opportunities,
    including development of leadership competencies, for interested and qualified staff.
•   Using individual development plans and periodic employee surveys to identify
    individual needs and collective interests, and providing employees developmental
    opportunities in line with their interests and OIG-wide priorities and requirements.
•   Collecting information from new hires and departing employees for use by senior
    managers in improving recruitment and retention practices.

Success in meeting OIG’s human resources performance goal is based on achieving staffing
and retention targets for employees within identified strategic competencies.

Measure:

           Measure         FY 1999         FY 2000    FY 2001    FY 2002      FY 2003
                            Actual          Actual     Actual     Actual      Targets
      Staff on-hand at       256            218        223         218          218
      end /of year
      Annual Attrition      17%             17%        16%         11%          11%
      Rate

OIG’s performance goal on the time it takes to complete projects—to issue a final report or
other product, as appropriate, within six months of starting a project—focuses on strategies
begun in FY 2002 to plan projects in phases that build upon each other, narrow the scope of
such projects, and staff them more aggressively. If OIG achieves the six-month target in FY
2003, as planned, it expects to maintain the target at this level in FY 2004 and future years.
This goal will be achieved within existing resources.

Strategies to support this goal include:

•   Planning and managing projects for completion in six months or less.
•   Identifying discrete phases of a project that can be conducted separately to produce
    individual reports or products that can be completed in six months or less, with each
    succeeding project phase building on prior phases.
•   Where practicable, assigning additional staff to ensure more timely completion.
•   Working with Department and BBG managers to reduce the time required for agency
    comment on OIG reports.
•   Tracking projects in the project tracking system and, where necessary, taking steps to
    ensure that milestones are met.

Success in meeting OIG’s project completion goal is based on averaging no more than six
months from the time OIG projects are started until they are completed and a report or other
product is issued and completing at least 65 percent of all projects within 183 days.



                                                  5
Measure:

           Measures        FY 1999      FY 2000     FY 2001     FY 2002     FY 2003
                            Actual       Actual      Actual      Actual     Targets
      Average number of      277          267         252         250         183
      days from project
      start to product
      issuance
      Percentage of           N/A         N/A         N/A         50%          65%
      projects completed
      within 183 days


Coordination of Crosscutting Issues

OIG employs several approaches to address crosscutting issues affecting our goals and
activities.

   Within the OIG community, the Inspector General addresses issues of common concern
   with other Inspectors General within the President’s Council on Integrity and Efficiency
   (PCIE) and the Intelligence Community Inspectors General Forum.
   The Inspector General meets quarterly with the Inspector General of the U.S. Agency
   for International Development (USAID) on issues of mutual concern, and OIG
   representatives attend relevant portions of USAID OIG’s annual strategic planning
   conference.
   OIG works with a network of Results Act coordinators from across the IG community to
   share information and to address common issues and concerns related to planning,
   performance-based management, and performance reporting as they arise.
   With the creation of a Department of Homeland Security and its cognizant OIG, we
   anticipate proposing and undertaking coordinated or joint reviews of visa issuance and
   other consular activities.
   As appropriate, OIG conducts joint audits or reviews of specific issues with other
   Offices of Inspector General. For example, we expect that the Administration’s program
   initiative to “rightsize” the U.S. Government’s overseas presence will require
   coordination of efforts with the OIGs of the Departments of Defense, Justice,
   Commerce, Agriculture, Treasury, AID, and other agencies operating overseas to assess
   progress toward this administration goal.
   The Office of Investigations also coordinates or conducts joint investigations with other
   OIGs and law enforcement entities, as appropriate.

Management Challenges and External Factors Affecting Goal Achievement

OIG faces many of the same management challenges that the Department and other
government entities are struggling to address, especially those encompassed within the
President’s Management Agenda initiatives on strategic management of human capital,
improving financial performance, and better integrating budgeting with performance.




                                             6
Strategies to address these challenges are addressed in portions of this plan related to
allocation of resources and ensuring operational integrity and effectiveness.

A number of other management challenges and external factors may affect our ability to
accomplish the goals and objectives set forth in this plan.

       Major changes in Department or BBG plans, goals, or priorities may result in a
       significant shift in resources or operational or regional focus, requiring a
       complementary shift in OIG’s goals and priorities. In addition, new foreign policy
       developments could result in additional demands that have not been anticipated and
       that exceed the resources available for unplanned activities.
       An increasing number of unfunded Congressional requests and mandates may
       require OIG to redirect its resources and activities, thereby reducing the resources
       available for discretionary activities that have been planned in support of specific
       goals or strategies.
       Major, unforeseen world events, on the order of the September 11 terrorist attacks,
       could require a refocusing of priorities or might otherwise impair OIG’s ability to
       carry out planned activities because of travel restrictions, security concerns, or other
       developments.
       Establishment of the Department of Homeland Security could have a far-reaching,
       yet-to-be-determined effect on the focus and priority of OIG activities and programs.
       We expect these requirements to become clearer as the new department takes shape,
       and will adjust our plans and goals accordingly.

Future Administration initiatives related to the President’s Management Agenda and the
program effectiveness assessments carried out in FY 2003 as part of the FY 2004 budget
process also may have an effect on OIG’s plans and activities. Although no set role has been
defined for the Inspectors General, as these initiatives develop and OMB provides more
advance notice of the programs to be assessed, we expect to adjust our goals and objectives
to meet these evolving needs. Follow-on activities during FY 2003 resulting from the FY
2004 program assessment reviews also may influence implementation of this plan. We will
undertake any necessary adjustments to this plan, as needs arise, to ensure the most effective
use of limited resources.

Measuring Our Success

OIG’s success in achieving its strategic and performance goals is measured, for the most
part, in terms of traditional measures of OIG operations.

   Recommendations resolved within six months and closed within one year—along with a
   new measure of significant recommendations closed within one year—indicate that
   agency management has acknowledged, and taken necessary actions to correct, an
   identified problem, and with “significant” recommendations the most necessary actions,
   in a timely manner in line with OIG recommendations or an acceptable alternative.
   Programs and missions audited, inspected, or otherwise reviewed indicate the scope of
   OIG’s efforts to examine activities, identify deficiencies, and recommend
   improvements.
   Reports issued indicate the outcome-oriented products that result from OIG reviews.


                                               7
   Financial measures that include cost efficiencies such as questioned costs and funds put
   to better use, as well as investigative fines and recoveries, indicate the monetary results
   of OIG activities.
   Investigative measures that include reductions in the time required to close employee
   investigations indicate the importance of bringing allegations to resolution in a timely
   manner.

Performance baselines, targets, and data for these measures are presented under the
individual discussions of each performance goal, beginning on page 10.

Verification and Validation of Performance Data

Performance measures are verified and validated in a variety of ways, as appropriate for
each measure.

    Some measures, including those related to completion of a specific activity such as
   conducting a review or issuing a report, are self-measuring, and require little in the way
   of verification and validation, beyond confirmation that the activity has been completed
   satisfactorily.
   Measures involving recommendations closed are based on compliance information
   tracked in OIG’s Compliance Analysis Tracking System (CATS) database. This
   database allows OIG to analyze progress and trends in resolution and implementation of
   OIG recommendations by topic and location (overseas posts or domestic bureaus). The
   status of recommendations is verified periodically with Department and BBG offices
   responsible for addressing the recommendations and with OIG offices responsible for
   evaluating and tracking compliance with them.
   Financial measures are based on the mandated measures for audit and investigative
   operations set forth in the Inspector General Act. The figures are based on results
   provided by the appropriate offices, which are tracked in CATS and reported in the
   Semiannual Report to the Congress and the Annual Report of the PCIE.
   Performance data for investigative measures are tracked in OIG’s Case Management
   System and reported in the Semiannual Report to the Congress and the Annual Report of
   the PCIE.
   For internal performance goal measures, staff on hand is based on the number of OIG
   Foreign and Civil Service employees in the Department payroll system for the last pay
   period of the fiscal year; the attrition rate is based on the number of staff on hand
   compared to those who have left during the year, as verified by OIG’s Office of
   Administration; the average number of days from project start to product issuance and
   the percentage of projects completed within 183 days is based on PTS and OTS data, as
   verified by documentation (notification memos and final report transmittals) and
   periodic supervisory reviews, as appropriate.

Information from systems used to track OIG performance data is reviewed and verified on a
bi-weekly basis, and is considered adequately reliable for purposes of decisionmaking. The
Office of Planning, Analysis, and Results works with OIG management and staff, as
necessary, to oversee and coordinate the verification and validation process; develop the
processes necessary to verify and validate performance measures and to coordinate,



                                              8
consolidate, and analyze data collected by OIG offices; and recommend changes to
strategies, indicators, and measures, as appropriate.

FY 2003 Performance Goals, Measures and Targets Revised from those of Prior Years

Following an analysis of FY 2002 performance results and the introduction of initiatives to
improve the OIG recommendation compliance process, several of the prior years’
performance goals, measures, and targets have been revised in FY 2003. These include:

       Moving the performance measures and targets relating to the percentage of missions
       and bureaus inspected within the last five years under the first performance goals for
       the foreign policy and security strategic goals, and eliminating the input-driven
       performance goals they previously measured.
       Supplementing our measures and targets relating to the percentage of
       recommendations resolved within six months and implemented within one year with
       a measure on the percentage of “significant” (as defined by OIG) recommendations
       implemented within one year.
       Lowering or raising some FY 2003 targets based on FY 2002 results and factors
       expected to significantly affect them in FY 2003.

Broadcasting Board of Governors

The Inspector General for the Department also serves as the Inspector General for the BBG.
To emphasize this dual responsibility, in FY 2002, OIG established an AIG for International
Broadcasting Oversight and expanded its interaction with the BBG. The AIG oversees and
coordinates all audit, inspection, and other activities related to the BBG and international
broadcasting issues. The results of these activities and related products will be reported as
part of our performance results in support of our four strategic goals.

Supporting the President’s Management Agenda

OIG is working with OMB to ensure that the work undertaken for FY 2003 and beyond
supports, to the extent appropriate and practicable, the management improvement initiatives
set forth in the President’s Management Agenda. OIG activities in support of the President’s
Management Agenda include projects, reviews, and evaluations to assess Department and
BBG progress in “getting to green” and meeting the Administration’s expectations for these
initiatives. OIG post management inspections include an area of emphasis on rightsizing
U.S. overseas presence, one of fourteen program-specific initiatives, for which the
Department has the lead responsibility.

Specific projects supporting the President’s Management Agenda are set forth under the
respective OIG strategic and performance goals on pages 18-19, and are identified on pages
20-21 under the initiative they support: strategic management of human capital, competitive
sourcing, improved financial performance, expanded electronic government, budget and
performance integration, and rightsizing U.S. overseas presence. OIG will report
periodically to OMB on Department and BBG progress on these initiatives.




                                              9
                          OIG Strategic and Performance Goals1
                                                           Foreign Policy

The Department and the BBG effectively, efficiently, and economically advance the
foreign policy interests of the United States

Performance Goal 1: Identify opportunities for improving the management and
operations of overseas missions, domestic bureaus, and international broadcasting
activities through post management and thematic inspections, audits, and program
evaluations.

Strategies:
• Provide senior Department and BBG management, overseas missions, and domestic
    bureaus with assessments of their performance and the quality of their management and
    operations through a comprehensive review of three primary areas: policy
    implementation, resource management, and management controls.
• Identify systemic and mission, bureau, and other entity-specific impediments and
    process improvements.
• Encourage self-evaluation and correction, where appropriate; provide counseling and
    advice to employees; and identify problems and recommend solutions at overseas
    missions, domestic bureaus, and international broadcasting offices and facilities.
 • Increase the number of missions and selected bureaus inspected and the frequency of
     inspections so that, by FY 2007, each mission and bureau is inspected no less than once
     every 5 years.
 • Ensure that the missions and selected bureaus that have not been inspected for 6 or
     more years constitute a majority of those inspected in FY 2003.
 • Where possible, link scheduled domestic bureau and mission inspections to capitalize
     on regional and/or thematic issues.
 • Conduct compliance follow-up reviews on at least 10% of recently inspected posts.
 • Conduct reviews of passport and visa issuance, visa fraud, and other consular
     operations that are critical to effective homeland security
 • Evaluate ongoing efforts by the Department and other agencies with overseas
     representation to rightsize their presence, in support of the President’s Management
     Agenda program initiative, identify additional opportunities, and provide periodic
     assessments to the Department, OMB, and other appropriate entities.
 • Evaluate the effectiveness of the Department’s regional support oversight and how it
     supports the Department’s rightsizing efforts.
• Encourage self-evaluation and correction, where appropriate; provide counseling and
    advice to employees; and identify problems and recommend solutions at overseas
    missions, domestic bureaus, and international broadcasting facilities.
 • Ensure that recommendations are significant, clearly stated, measurable, and
     implementable.

1
    A list of projects planned for FY 2003 in support of our strategic and performance goals can be found in the table starting on page 18.




                                                                       10
Measures:

          Measure           FY 1999     FY 2000     FY 2001      FY 2002      FY 2003
                             Actual      Actual      Actual       Actual      Targets
      Percentage of          84%         85%          57%          62%          85%
      recommendations
      resolved within six
      months of Issuance
      Percentage of          79%         81%          85%          78%          85%
      recommendations
      closed within one
      year of Issuance
      Percentage of          N/A          N/A         N/A          N/A          50%
      Significant
      recommendations
      closed within one
      year of Issuance
      Percentage of          63%         66%          64%          70%          79%
      Missions and
      Bureaus Inspected
      within last 5 years

Resources: OIG did not receive any additional resources in support of this goal.

Performance Goal 2: Evaluate at least 9 U.S. Government operations and programs
with foreign policy implications, especially those under Chief of Mission authority
or related to international broadcasting and the free flow of information around the
world; identify obstacles to Chief of Mission, Department, or BBG oversight and
coordination of the operations and programs; and recommend actions necessary to
remove or overcome them.

Strategies:
• Focus audits, thematic inspections and other reviews on issues relating to consular, anti-
    terrorism, border security, international broadcasting, and other activities with foreign
    policy implications that under are Chief of Mission authority or related to international
    broadcasting and the free flow of information.
• Review the effectiveness of Department consular operations with significant foreign
    policy and homeland security implications, including fraud prevention programs,
    overseas passport operations, and visa issuance programs.
• Identify impediments to the effectiveness and efficiency of these activities and, where
    appropriate, recommend corrective actions.




                                             11
Measure:

           Measure        FY 1999     FY 2000       FY 2001    FY 2002      FY 2003
                           Actual      Actual        Actual     Actual       Target
      Number of              8            9           7            8           9
      Reports Issued on
      Programs
      Reviewed

Resources: OIG did not receive any additional resources in support of this goal.
   .


                                         Security

The Department and the BBG adequately protect the people, information, and facilities
under their control in the United States and abroad.

Performance Goal 1: Assess the adequacy of Department and BBG security for their
personnel, property and information at overseas missions and domestic locations and ensure
that, as appropriate, necessary corrective actions are implemented.

Strategies:
• Examine the management and administration of security programs, determine the
    systemic causes of the problems and vulnerabilities, and identify ways to remove or
    mitigate them.
• Assess the efficiency and effectiveness of the Department’s use of additional security
    funding and resources received in response to concerns regarding homeland security and
    security of overseas missions and personnel.
• Evaluate intelligence coordination and oversight issues between the Department and
    other federal entities.
• Assemble special teams, as necessary, to review priority construction and security
    programs, including new missions in Berlin and Beijing.
• React quickly and appropriately to unanticipated requests relating to the Department’s
    role in homeland security issues.
• Conduct security and intelligence oversight reviews of embassy security, intelligence
    activity, and other programs and operations that contribute to ensuring homeland
    security.
• Include at least one security specialist on every post inspection team reviewing missions
    that have not had a full-scope security inspection within the past two years.
• Maintain a program of security inspections, security evaluations, and security personnel
    assisting OIG inspection teams that ensures that each mission and bureau (where
    appropriate) will have at least a limited security review by OIG once every five years.
• Conduct compliance follow-up reviews on at least 10% of previously inspected posts.
• Expand security inspections of Department domestic facilities to include those that have
    not been inspected previously.



                                              12
•  As appropriate, prioritize reoccupied, new, and significantly changed facilities when
   setting security inspection schedules.
• Work and coordinate with the Bureau of Diplomatic Security and the geographic
   bureaus to identify missions with security problems or that would benefit from a security
   inspection.
• Where possible, obtain detailed security specialists from other federal entities to assist in
   OIG security inspections.
 • Ensure that recommendations are significant, clearly stated, measurable, and implement
    able.

Measures:

           Measure         FY 1999      FY 2000      FY 2001      FY 2002      FY 2003
                            Actual       Actual       Actual       Actual      Targets
      Number of                2            6           6            7            7
      Reports Issued on
      Programs
      Reviewed
      Percentage of          48%          56%          70%          82%         84%
      recommendations
      resolved within
      six months of
      Issuance
      Percentage of          55%          60%          60%          64%         67%
      recommendations
      closed within one
      year of Issuance
      Percentage of          N/A          N/A          N/A          N/A         50%
      Significant
      recommendations
      closed within one
      year of Issuance
      Percentage of          59%          59%          73%          79%         90%
      Missions
      evaluated within
      last 5 years

Resources: OIG did not receive any additional resources in support of this goal.

Performance Goal 2: Identify vulnerabilities and recommend corrective action with respect
to information security and systems at no fewer than 15 overseas missions.

Strategies:
• Use the methodology developed and piloted in FY 2002 to assess the effectiveness of
    information security systems and programs at overseas missions.
• Continue to modify, as appropriate, and to expand usage of the methodology to assess
    the effectiveness of mission information security programs, including, where applicable,
    its use by OIG security inspection and other review teams.



                                                13
•   Focus attention on elements of information security systems that are vulnerable to
    cyberterrorism and other threats to homeland security.

Measure:

           Measure         FY 1999      FY 2000      FY 2001      FY 2002     FY 2003
                            Actual       Actual       Actual       Actual      Target
      Number of Mission      N/A          N/A          N/A           7           15
      IT Systems
      Reviewed

Resources: OIG did not receive any additional resources in support of this goal.



                Financial Management and Administrative Support

The Department and the BBG have the necessary financial and support systems and
controls to meet legal and operational requirements

Performance Goal 1: Identify challenges and vulnerabilities, with recommendations to
address them, for at least 21 Department financial and administrative support programs and
activities.

Strategies:
• Continue to perform all mandated and, where resources allow, requested audits and
    reviews relating to the Department’s financial statements, grants, and other federal
    assistance.
• Assess whether the Department and BBG are using the most cost-effective means of
    providing services overseas.
• Assess the Department’s efforts to maintain and build missions overseas.
• Review Department workforce planning efforts, with particular emphasis on overseas
    staffing issues identified by the Overseas Presence Advisory Panel.
• Review the adequacy of the steps the Department and BBG have taken strategically to
    manage and maintain their investments in human capital.
• Review Department and BBG internal information technology and communications
    systems; their ability to interface and communicate effectively and efficiently with other
    federal entities, as appropriate; and the Department’s efforts to promote U.S.
    information technology issues successfully abroad.
• Review Department and BBG efforts to replace aging systems with modern alternatives
    in areas such as messaging and logistics management.
• Assess the Department’s efforts to incorporate public key infrastructure into its
    information security program.
• Review the economy, efficiency, and effectiveness of Department and BBG support
    services and activities.




                                              14
• Assess the Department’s progress in improving financial systems to comply with the
  Federal Financial Management Improvement Act and the President’s Management
  Agenda initiatives to improve financial performance and integrate budget and
  performance.
• Ensure that recommendations are significant, clearly stated, measurable, and
  implementable.

Measures:

            Measure       FY 1999      FY 2000     FY 2001      FY 2002     FY 2003
                           Actual       Actual      Actual       Actual     Targets
      Number of              13          14           15          21           21
      Reports Issued on
      Programs
      Reviewed
      Percentage of         52%         72%          65%         44%          72%
      recommendations
      resolved within
      six months of
      Issuance
      Percentage of         40%         72%          26%         58%          72%
      recommendations
      closed within one
      year of Issuance
      Percentage of         N/A          N/A         N/A          N/A         50%
      Significant
      recommendations
      closed within one
      year of Issuance

Resources: OIG did not receive any additional resources in support of this goal.

Performance Goal 2: Evaluate Department and BBG progress in measuring performance
and implementing the President’s Management Agenda, and recommend improvements, as
appropriate.

Strategies:
• Include steps in every audit and inspection plan to review and assess performance goals
    and measures and applicable President’s Management Agenda issues related to the
    program or mission being reviewed.
• Monitor Department and BBG efforts to establish and use performance goals and
    measures and implement the President’s Management Agenda, and recommend
    improvements, where necessary.
• Evaluate Department and BBG success in achieving specified performance goals,
    linking performance goals to its budget, and meeting requirements set forth in OMB
    Circular A-11 and the President’s Management Agenda initiative to integrate
    performance and budgeting.




                                              15
•   Identify Department and BBG efforts and initiatives in support of the President’s
    Management Agenda and, as appropriate, review and recommend any necessary
    corrective actions for at least one initiative under each of the President’s Management
    Agenda issues.

Measure:

           Measure          FY 1999     FY 2000      FY 2001     FY 2002      FY 2003
                             Actual      Actual       Actual      Actual       Target
      Reports issued that      4            4           4            5           12
      address
      performance
      measurement or
      PMA Issues

Resources: OIG did not receive any additional resources in support of this goal.


                                      Accountability

The Department and BBG ensure accountability and prevent or eliminate fraud,
waste, abuse, and mismanagement in programs and operations

Performance Goal 1: Identify a minimum of $7.8 million in potential monetary benefits as
a result of audit and investigative recommendations to identify fraud, waste, abuse, and
mismanagement and to improve the efficiency of Department operations and compliance
with applicable contracts and grant agreements.

Strategies:
• As part of the audit and inspection process, identify opportunities for cost savings and
    avoidance of costs.
• Audit selected non-governmental organizations, Fulbright Commissions, and contractors
    to ensure that they are adequately accounting for federal funds and meeting grant
    agreements or contract requirements.
• Identify and address financial malfeasance and vulnerabilities and, where appropriate,
    recommend efforts to effect monetary recoveries.

Measure:

           Measure          FY 1999     FY 2000      FY 2001     FY 2002      FY 2003
                             Actual      Actual       Actual      Actual       Target
      Cost Savings,         $9.36        $3.23       $12.49       $40.04       $7.8
      Efficiencies,         million      million     million      million     million
      Recoveries, and
      Fines

Resources: OIG did not receive any additional resources in support of this goal.



                                                16
Performance Goal 2: Promote awareness and adherence to standards of professional and
ethical conduct and accountability; where necessary, conduct thorough and expeditious
investigations of fraud, waste, abuse, and mismanagement.

Strategies:
• Continue outreach activities aimed at employees on standards of conduct and
    accountability, through presentations to courses for new officers, deputy chiefs of
    mission, ambassadors, and other appropriate audiences.
• Conduct namecheck reviews in a thorough and timely manner.
• Implement an automated hotline attendant to route incoming calls to appropriate
    channels in a timely manner.
• Coordinate and/or conduct joint investigations with other OIGs and law enforcement
    entities, as appropriate.
• Continue to develop and increase staff capabilities to conduct investigations of contracts
    and grants allegations and irregularities.

Measures:

      Measure       FY 1999       FY 2000           FY 2001     FY 2002       FY 2003
                     Actual        Actual            Actual      Actual       Targets
     Days cases    9% < 100        45% < 100      26% < 100      45% < 100     50% < 100
     open at       25%@100-200   30%@100-200    21% @100-200   5%@100-200    10%@100-200
     end of        16%@201-300   0%@201-300     16% @201-300   20%@201-300   15%@201-300
     year          50%>300          25%>300        37%>300        30%>300       25%>300
     Days to         20% < 100     27% < 100      53% < 100      58% < 100     50% < 100
     close cases   19%@100-200   20%@100-200    20% @100-200   17%@100-200   25%@100-200
     closed        15%@201-300   10%@201-300     7% @201-300   8%@201-300    8%@201-300
     during           46%>300       43%>300        20%>300        17%>300       17%>300
     year

Resources: OIG did not receive any additional resources in support of this goal.




                                               17
                                    Projects Planned for FY 2003


                    Projects Supporting OIG Strategic and Performance Goals
      (Bold indicates that a project supports an initiative of the President’s Management Agenda)

                                  PG1                                                               PG2

      • Post/Bureau Management Inspections & Compliance                   Survey of Radio Free Asia Activities (IBO)
SG1
        Follow Up Reviews (ISP)                                           Follow-up Survey of the Middle East Radio Network
      • Inspection of the Helsinki Regional Monitoring Office (IBO)       (IBO)
                                                                      •   Status of Merger of Worldnet TV with VOA (IBO)
                                                                      •   Effectiveness and Implementation of OCB New Program
                                                                          Initiatives (IBO)
                                                                      •   Internet and New Technology Development (IBO)
                                                                      •   Domestic Passport Operations, Phase II—Passport Fraud
                                                                          Prevention Programs (ISP)
                                                                      •   Domestic Passport Operations, Phase III—Regional
                                                                          Passport Agency Operations and Management (ISP)
                                                                      •   Survey of Overseas Visa Operations (ISP)
                                                                      •   Immigrant Visa Diversity Program Review (ISP)
                                                                      •   Inspection of Bureau of Consular Affairs Visa Office (ISP)
                                                                      •   Overseas Passport Operations (ISP)
                                                                      •   Diplomatic Security/Consular Affairs Overseas Fraud
                                                                          Prevention Program (ISP)
                                                                      •   Inspection of the Bureau of Consular Affairs Executive
                                                                          Office and Consular Affairs Lookout and Support System
                                                                          (ISP)
                                                                      •   Enforcement of Export Controls (AUD)
                                                                      •   Cumulative Effects of Munitions Exports (AUD)
                                                                          Refugee Admissions and Resettlement—Program
                                                                          Results (AUD)
                                                                      •   Assignment Process for Hard-To-Fill Posts (AUD)

        Security and Intelligence Oversight Inspections and               Pilot Test, Information Security Inspection and Evaluation
SG2     Compliance Followup Reviews (SIO)                                 Methodology-Lisbon (IT)
        Review of the Management of Classified Holdings Overseas          Pilot Test, Information Security Inspection and Evaluation
        (SIO)                                                             Methodology-Madrid (IT)
        Control of Communications Security Materials and                  Information Security Inspection Evaluations (IT)
        Electronic Storage (SIO)
        Secure Shipments of Classified Information Processing
        Equipment (SIO)
        Review of the Department’s Unit Security Officer Program
        (SIO)
        Oversight of the Security of the Construction of a New
        Embassy Compound in Beijing (SIO)
        Management of Overseas Post Security Upgrade Projects
        (SIO)
        FISMA 03—Department of State (IT)
        FISMA 03—BBG (IT)
        Information Warfare Issues (IT)
        Vulnerability of Department Systems through USAID
        Network (IT)
        Intrusion Detection Effectiveness (IT)
        Monitoring Contractor Performance in Worldwide Local
        Guard Programs (AUD)
        Background Investigations of FSNs (SIO)
        DS Overseas Technical Security Inspection Program (SIO)




                                                         18
                              PG1                                                        PG2

      Government Paperwork Elimination Act (IT)                 BBG’s Strategic Human Capital Management Plan
SG3                                                             (IBO)
      Department Efforts to Implement Knowledge
      Management & E-Diplomacy through FASI (IT)                BBG Strategic Planning: Establishment and Verification
      Review of Knowledge Management Initiatives (IT)           of Performance Measures (IBO)
      Review of Financial Assistance Management (AUD)           FAIR Act – Use of Domestic Staffing Model (AUD)
      Overseas Building Operations (OBO) Design and
      Construction (AUD)
      Bogotá Vehicle Procurement (AUD)
      Audits of the Department’s Financial Statements 2001
      (AUD)
      Consolidation of Financial Services at Charleston
      Financial Service Center (FSC) (AUD)
      Domestic Travel Card Program (AUD)
      Status of the Department’s Financial Management
      Remediation Plan (AUD)
      Review of Energy Conservation (AUD)
      Monitoring Contractor Performance at the BBG (AUD)
      Office of Foreign Missions Systems Contract (AUD)
      DTS-PO Inventory (AUD)
      Electronic Records Management (IT)
      Messaging System Modernization (IT)
      Review of the Integrated Logistics Management System
      (IT)
      Review of Personnel Practices at RFE/RL (IBO)
      Data Reviews, Quality Control Reviews (QCRs), and
      Contract Audit Services (AUD)
      Audit of the National Endowment for Democracy (AUD)
      Audits of the Department’s Financial Statements 2002
      and 2003 (AUD)
      Consolidation of Financial Services at Charleston FSC—
      RFMS Conversion (AUD)
      Improper Payments (AUD)
      Post Assignment Travel (AUD)
      Audit of Unliquidated Obligations System and Procedures
      (AUD)
      Foreign Currency Management (AUD)
      Review of International Cooperative Administrative
      Support Services’ Budgeting and Billing (AUD)
      Monitoring Expired and Canceled Accounts (AUD)
      Review of Demining Contract Issue (AUD)
      Unauthorized Commitments—Domestic (AUD)
      Review of Demining Contract Issues II (AUD)
      Vehicle Management (AUD)
      Unauthorized Commitments—Overseas (AUD)
      DTS-PO Financial Contributions (AUD)
      ONDCP Attestation Review (AUD)
      FSN Compensation and Benefits (AUD)
      State/USAID Financial Management Integration
      (AUD)

      Audits of Selected Grantees and Contractors (AUD)
                                                                 U.S. Direct Assistance to Colombian National Police
SG4   Overseas Buildings Operations (OBO) Construction
      (AUD)                                                      (AUD)
                                                                 Outreach Activities (All OIG)
                                                                 Investigations and Hotline Activities (INV)




                                                   19
              Projects Supporting President’s Management Agenda Initiatives

Strategic Management of Human Capital

       Effectiveness and Implementation of OCB New Program Initiatives
       Assignment Process for Hard-to-Fill Posts
       Review of Personnel Practices at RFE/RL
       BBG’s Strategic Human Capital Management Plan


Competitive Sourcing

       FAIR Act – Use of Domestic Staffing Model
       State/USAID Financial Management Integration


Improved Financial Performance

       Review of Financial Assistance Management
       Audits of the Department’s Financial Statements for FY 2001
       Consolidation of Financial Services at Charleston Financial Service Center
       Domestic Travel Card Program
       Status of the Department’s Financial Management Remediation Plan
       Data Reviews, Quality Control Reviews and Contract Audit Services
       Audit of the National Endowment for Democracy
       Audits of the Department’s Financial Statements for FY 2002 and 2003
       Oversight of the Regional Financial Management System Conversion
       Improper Payments
       Post Assignment Travel
       Audit of Unliquidated Obligations System and Procedures
       Foreign Currency Management
       Review of International Cooperative Administrative Support Services’ Budgeting and
       Billing
       Monitoring Expired and Canceled Accounts
       Review of Energy Conservation
       Monitoring Contractor Performance at the BBG
       Unauthorized Commitments—Domestic
       Unauthorized Commitments—Overseas
       DTS-PO Financial Contributions
       Review of Selected Awards to the Soros Foundation (Open Societies) for Activities
       Audits of Selected Grantees and Contractors
       Follow-up Review of Mississippi Consortium for International Development
       Follow-up Review of AYUSA International
       Overseas Buildings Operations Construction
       Youth For Understanding, Inc.
       Follow-up Review of Project Harmony, Inc.




                                              20
Expanded Electronic Government

       Internet and New Technology Development—BBG
       Compliance with Section 508
       Government Paperwork Elimination Act
       Department Efforts to Implement Knowledge Management and E-Diplomacy through FASI
       Review of Knowledge Management Initiatives
       Electronic Records Management
       Messaging System Modernization
       Review of the Integrated Logistics Management System


Budget and Performance Integration

       Status of the Merger of Worldnet TV with VOA
       Refugee Admissions and Resettlement: Program Results
       Survey of Radio Free Asia Activities
       Follow-up Survey of the Middle East Radio Network
       Semiannual Survey of RFE/RL Management Practices: Language Services
       BBG Strategic Planning: Establishment and Verification of Performance Measures


Rightsizing U.S. Overseas Presence

       Inspections of Overseas Missions and Domestic Bureaus
       Overseas Building Operations Design and Construction




                                             21
